         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report



       Existing Contracts Enabled EPA to
       Quickly Respond to Hurricane Katrina;
       Future Improvement Opportunities Exist

       Report No. 2006-P-00038

       September 27, 2006
Report Contributors:	              Michael Petscavage
                                   Andres Calderon
                                   Lorraine Fleury
                                   Dana Short
                                   Jean Bloom
                                   Patricia Taylor




Abbreviations

EPA            U.S. Environmental Protection Agency
ERRS           Emergency Rapid Response Services
FAS            Fixed Assets System
FEMA           Federal Emergency Management Agency
OARM           Office of Administration and Resources Management
OIG            Office of Inspector General
OSWER          Office of Solid Waste and Emergency Response
START          Superfund Technical Assessment and Response Team




Cover photo:     Trailers contracted for by EPA to temporarily house employees in
                 Metairie, Louisiana (EPA OIG photo).
                       U.S. Environmental Protection Agency                                            2006-P-00038

                       Office of Inspector General                                                September 27, 2006





                       At a Glance
                                                                       Catalyst for Improving the Environment


Why We Did This Review            Existing Contracts Enabled EPA to Quickly Respond to
                                  Hurricane Katrina; Future Improvement Opportunities Exist
We sought to determine
whether the U.S.                   What We Found
Environmental Protection
Agency (EPA), in its response     EPA’s existing contracts awarded for responding to natural disasters worked as
efforts related to Hurricane      intended and allowed EPA to quickly respond to Hurricane Katrina. While
Katrina, adequately designed      opportunities for future improvement exist, EPA’s ability to operate under
and effectively implemented       catastrophic conditions was commendable. Almost immediately after Katrina,
controls for expenditures,        EPA officials were in affected areas, assessing damage and formulating action
paid a reasonable price for       plans. As a result, EPA quickly began protecting human health and the
products and services             environment. Further, existing contracts limited cost risks, because EPA did not
obtained, and adequately          have to quickly award a large number of noncompetitive sole source contracts.
safeguarded purchased assets.
                                  EPA still needed to award some noncompetitive contracts valued at about
Background                        $9 million during its Katrina response efforts, and we noted areas where EPA can
                                  make improvements for future disasters. Contracts need to be flexible, provide
On August 29, 2005,               sufficient detail on what is being obtained, avoid unnecessarily long periods of
Hurricane Katrina devastated      performance, adequately support price reasonableness determinations, and ensure
parts of Louisiana,               procurements are used to address the disaster.
Mississippi, and Alabama.
EPA had existing emergency        EPA needed to improve its review of contractor invoices to help prevent payment
response contracts in place at    of duplicate, unallowable, and/or unreasonable costs. Our review of a limited
the time Hurricane Katrina hit,   number of invoices found that contractors overcharged EPA $18,298 in duplicate
and used these contracts          payments, $54,734 by using inappropriate indirect cost and labor rates, and
extensively to support its        $110,843 in inappropriate boat rental costs. During the course of our audit, EPA
response efforts. The             initiated actions to have contractors repay those amounts. At our urging, EPA
response efforts involved         placed greater emphasis on reviewing invoices, and its prompt actions eliminated
sending numerous personnel        our concerns in this area.
to the area and purchasing
equipment and services to         EPA needs to improve plans for property management during catastrophic
support them.                     emergencies. Almost 4 months after Katrina, EPA had in most cases not properly
                                  placed decals on equipment and/or recorded equipment in its property system.
                                  While this understandably happened because of the emergency situation, EPA
For further information,          should attempt to improve controls for handling future disasters.
contact our Office of
Congressional and Public
Liaison at (202) 566-2391.         What We Recommend

To view the full report,          Recognizing that EPA has begun a process to improve its response efforts for
click on the following link:      future catastrophic events based on its Katrina experience, we made various
www.epa.gov/oig/reports/2006/
20060927-2006-P-00038.pdf         recommendations to help it prepare for such future events. EPA agreed to take
                                  sufficient actions on all recommendations.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF 

                                                                                   INSPECTOR GENERAL





                                       September 27, 2006

MEMORANDUM

SUBJECT:               Existing Contracts Enabled EPA to Quickly Respond to
                       Hurricane Katrina; Future Improvement Opportunities Exist
                       Report No. 2006-P-00038

TO:                    Susan Parker Bodine
                       Assistant Administrator for Solid Waste and Emergency Response

                       Luis A. Luna
                       Assistant Administrator for Administration and Resources Management

                       James I. Palmer, Jr.
                       Regional Administrator, Region 4

                       Richard E. Greene
                       Regional Administrator, Region 6


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains improvement opportunities
that OIG and EPA personnel have identified and recommendations that EPA should consider
when responding to future disasters. This report represents the opinion of the OIG and does not
necessarily represent the final EPA position. Final determinations on matters in this report will
be made by EPA managers in accordance with established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $462,870.

Action Required

Your response to the draft report adequately addresses the recommendations in this report.
Therefore, we will close this report upon issuance and no further response to this report is
necessary. We have no objection to the further release of this report to the public. This report
will be available at http://www.epa.gov/oig.
If you or your staff have any questions regarding this report, please contact me at 202-566-0847
or roderick.bill@epa.gov, or Carl Jannetti, the Product Line Director for Contract Audits, at
215-814-5800 or jannetti.carl@epa.gov.


                                                    Sincerely,



                                                    Bill A. Roderick
                                                    Acting Inspector General
         Existing Contracts Enabled EPA to Quickly Respond to Hurricane Katrina;

                         Future Improvement Opportunities Exist 



                                Table of Contents 


Chapters
 1	   Introduction ...........................................................................................................      1

              Purpose ..........................................................................................................    1         

              Background ....................................................................................................       1         

              Scope and Methodology.................................................................................                3

              Internal Control Structure ...............................................................................            4


 2	   EPA Katrina Response Efforts Commendable; 

      Opportunities for Improvement Noted for Future Disasters .............................                                        5

              Contract Agreements Needed More Flexibility ...............................................                           5

              Contract Requirements Needed More Detail..................................................                            6

              Contract Performance Periods Longer than Necessary .................................                                  7

              Price Reasonableness Determinations Inadequate .......................................                                7

              Non-Katrina Items Purchased Using Relaxed Authority.................................                                  7

              Procurements Often Rushed and Contracting Personnel Not Available ........                                            8

              EPA Initiated Corrective Actions Promptly .....................................................                       8

              Recommendations .........................................................................................             9         

              Agency Response and OIG Comment ...........................................................                           9


 3	   EPA Can Improve Reviews of Contractor Invoices............................................                                   11     

              EPA Contracting Personnel Did Not Perform Sufficient Reviews...................                                      11 

              Duplicate Charges and Billing Errors Occurred..............................................                          11 

              EPA Overcharged for Contractor-Owned Boats.............................................                              12 

              EPA Needs Increased Review of Invoices during Catastrophes....................                                       13 

              Recommendations .........................................................................................            14         

              Agency Response and OIG Comment ...........................................................                          14 


 4	   Property Management during a Disaster Challenging.......................................                                     16 

              Katrina Caused Problems in Property Management ......................................                                16 

              Steps Taken to Safeguard Equipment during Katrina Response ...................                                       18 

              Recommendation ...........................................................................................           18         

              Agency Response and OIG Comment ...........................................................                          19 


 Status of Recommendations and Potential Monetary Benefits.................................                                        21     



Appendices
 A    Full Text of Agency Response .............................................................................                   22     


 B    Distribution ............................................................................................................    30

                                Chapter 1
                                Introduction

Purpose
          On August 29, 2005, Hurricane Katrina made landfall in southeast Louisiana,
          causing catastrophic damage along the coastlines of Louisiana, Mississippi, and
          Alabama. The U.S. Environmental Protection Agency (EPA) quickly deployed
          emergency response personnel who, with the Federal Emergency Management
          Agency (FEMA) and others, assessed the damage and initiated cleanup
          operations. EPA largely used existing emergency response contracts for the
          cleanup, and made other emergency purchases with purchase cards and/or
          purchase orders. Our audit objectives were to determine whether EPA:

             •	 Adequately designed and effectively implemented controls for
                authorizing, awarding, documenting, and approving expenditures.
             •	 Paid a reasonable price for goods and services obtained.
             •	 Adequately safeguarded purchased assets.

Background
          After Hurricane Katrina struck, EPA responded to protect public health and the
          environment. EPA dispatched first responders to Louisiana, Mississippi, and
          Alabama, many of whom initially performed rescue operations. Subsequently,
          first responders assessed damage; sampled the environment to ensure the public’s
          safety; and began cleaning up the hurricane debris, including hazardous materials.

          The magnitude of the disaster required EPA to quickly supplement the first
          responders with additional EPA personnel from across the Nation. Employees
          from various regional offices volunteered to assist and went to the affected areas
          for 2-3 week rotations. While the number of EPA employees fluctuated, the
          temporary living arrangements that EPA established could accommodate as many
          as 130 people. Residence logs indicated between 80 to 130 EPA employees used
          these accommodations during each 2-3 week period. Additionally, EPA contracts
          provided for about 1,000 contractor personnel for the relief efforts.

          EPA’s Region 4 office, which is headquartered in Atlanta, Georgia, and is
          responsible for Alabama and Mississippi, established an Incident Command
          Center in Biloxi, Mississippi. EPA Region 6, which is headquartered in Dallas,
          Texas, and is responsible for Louisiana, established its Incident Command Center
          in Metairie, Louisiana, on the grounds of the Louisiana Technical College. The
          Metairie center utilized several of the college’s buildings and surrounding
          grounds, as well as 78 trailers for housing up to 130 EPA personnel.


                                           1

FEMA provided EPA approximately $750 million for response work needed as a
result of Hurricane Katrina and the subsequent Hurricane Rita. FEMA authorized
EPA to provide technical assistance and to recover, remove, and dispose of debris
and hazardous wastes. EPA also received $3.5 million from the U.S. Army Corps
of Engineers for similar work. EPA’s financial system indicated that as of June
2006 it obligated about $530 million of the $750 million. EPA was responsible
for leading work performed by the U.S. Coast Guard, and the $530 million
included $107 million that EPA provided directly to the Coast Guard.

EPA’s mission requires it to respond to disasters; each region has a cadre of
personnel specializing in this type of work. However, the magnitude of the 2006
hurricane response required EPA to purchase and receive significant amounts of
equipment and material under catastrophic conditions. The majority of the
purchases were made by Region 6 for Louisiana and Region 4 for Alabama and
Mississippi.

On September 9, 2005, EPA issued a Class Justification authorizing other-than
full-and-open competition for Hurricane Katrina response requirements.
Although used in relatively few circumstances, the justification enabled EPA to
obtain contractor support on an urgent, compelling, and noncompetitive basis.
Although the justification enabled EPA contracting personnel to expedite the
contracting process, it contained several requirements. For example, the
contracting officers were required to determine whether the anticipated cost to the
Government would be fair and reasonable for each contract action.

Purchase card spending limits (micro-purchase authority) were also increased to
expedite hurricane relief. The Second Emergency Supplemental Appropriations
Act to Meet Immediate Needs Arising from the Consequences of Hurricane
Katrina (Public Law 109-62) raised the micro-purchase threshold from $2,500 to
$250,000 for procurements of property or services needed for Hurricane Katrina
rescue and relief operations. However, EPA only increased purchase card
holders’ single purchase limits to $15,000.

On September 26, 2005, EPA submitted a Stewardship Plan for significant
acquisitions related to Hurricane Katrina rescue, recovery, and reconstruction
operations, to ensure the prudent use of taxpayer funds. The plan applied to all
EPA offices, including acquisition, finance, and program offices. It established a
Control Board comprised of Office of Acquisition Management Division
Directors (i.e., Chiefs of Contracting Offices), and a representative from the
Office of General Counsel, the Office of the Chief Financial Officer, and the
Office of the Chief Information Officer. The Office of Inspector General (OIG)
participated as a nonvoting member of the group.




                                 2

         The plan required the Board to review “significant acquisitions” related to
         Hurricane Katrina. Significant acquisitions were defined as:

            •	   Acquisitions in excess of $5,000,000.
            •	   Micro-purchases between $15,000 and $250,000.
            •	   Simplified acquisitions between $100,000 and $250,000.
            •	   Purchases of sensitive property, defined as nonexpendable items (such as
                 laptop computers, Blackberries, and cell phones) that may be converted to
                 private use or have a high potential for theft.

         The EPA Control Board appointed a representative to review significant
         transactions. The OIG reviewed many of these transactions collaboratively with
         the Board’s representative, as well as many transactions not covered by the
         stewardship plan. The results of both reviews were reported to the Board, which
         took corrective action in a timely manner. Many of the issues discussed in this
         report resulted from this collaborative effort.

Scope and Methodology
         We performed this audit from September 2005 to April 2006 in accordance with
         Government Auditing Standards, issued by the Comptroller General of the United
         States. We visited EPA Headquarters in Washington, DC; EPA regional offices
         in Atlanta, Georgia (Region 4) and Dallas, Texas (Region 6); and the EPA
         Incident Command Center in Metairie, Louisiana.

         At the headquarters, regional, and field level locations, we interviewed EPA
         officials in the Office of Solid Waste and Emergency Response (OSWER), Office
         of Administration and Resources Management (OARM), and Regions 4 and 6.
         We analyzed procurements to determine how they could be improved in the
         future, and also reviewed documentation related to the following:

         Contracts: EPA Regions 4 and 6 used existing Emergency Rapid Response
         Services (ERRS) and Superfund Technical Assessment and Response Team
         (START) contracts to perform hurricane relief, and we focused our review on
         these contracts. We reviewed contractor invoices paid from October 2005
         through March 2006 to determine whether the costs billed were allowable,
         allocable, and reasonable, in accordance with the Federal Acquisition Regulations
         and contract terms.

         Purchase Orders: We reviewed documentation through February 2006 to ensure
         that EPA procured products and/or services using appropriate acquisition methods
         (such as sole source, full and open competition, and simplified acquisition
         procedures), and that the prices paid were reasonable. In some cases, it was
         difficult to determine the reasonableness of the price paid due to the unstable
         market environment created by Hurricane Katrina.




                                          3

          Purchase Cards: We reviewed a judgmental sample of purchase card
          transactions initiated from August 29, 2005, when Katrina struck, through
          October 2005. Specifically, we sampled purchase card transactions:

             •   Greater than $10,000.
             •   For purchases of sensitive items.
             •   Possibly split to avoid purchase authority limitations.
             •   For a large number of purchases by one person or to the same vendor.
             •   For even dollar amounts.

          Equipment Recording and Tracking: We reviewed all purchase order
          transactions for equipment in EPA’s consolidated reports as of January 6, 2006.
          We also examined purchase card transactions made in September and October
          2005 in support of Hurricane Katrina to identify equipment and property
          purchased. We then compared this purchased equipment and property to the
          information recorded in EPA’s Fixed Assets System.

Internal Control Structure
          In planning and performing our audit, we reviewed management controls related
          to our objectives. We examined the Agency’s Stewardship Plan issued on
          September 26, 2005. This plan outlined EPA’s controls and monitoring
          procedures that would be used to review its costs incurred related to Hurricane
          Katrina. We examined the Fiscal Year 2005 Federal Managers’ Financial
          Integrity Act Annual Assurance Letters issued to the EPA Administrator by
          OARM.




                                          4

                                   Chapter 2
     EPA Katrina Response Efforts Commendable;
Opportunities for Improvement Noted for Future Disasters

          EPA accomplished the majority of its Katrina response work using preexisting
          contracts, although it did award a limited number of noncompetitive contracts,
          valued at about $9 million. EPA made most of these procurements under
          emergency conditions, and was often rushed because of the need to obtain
          products and services quickly. While there were several opportunities for
          improvement, EPA’s ability to operate under catastrophic conditions was
          commendable. Recognizing that EPA may have done things differently under
          normal circumstances, Agency personnel now have experience to enable them to
          better anticipate needs for future disaster responses. These experiences can also
          be applied to other Federal agencies. For example, for future emergency
          situations, EPA should attempt to ensure that:

             •   Contract terms are flexible and adaptable to changing requirements.
             •   Contracts provide sufficient detail on what is being bought and at what cost.
             •   Periods of performance are not unnecessarily long.
             •   Price reasonableness determinations are adequately supported.
             •   Procurements made are actually used to address the disaster.

          EPA personnel told us that having more contracting personnel in the disaster area
          sooner might have mitigated these conditions; negotiations were often performed
          by facility or response personnel without contracting officer involvement. In any
          event, EPA took prompt action during the Katrina response to resolve the issues
          that the Control Board and the OIG identified.

Contract Agreements Needed More Flexibility
          Several contracts needed more flexible contract terms so that EPA could adapt
          more easily to unforeseen circumstances and changing requirements. Given the
          uncertainties surrounding an emergency response of this size, flexible contracts
          are important to help protect the Government from obtaining unneeded services.

          For example, EPA awarded a food service contract to provide meals to its
          personnel in New Orleans. The contract stipulated, for a total of almost $750,000,
          that the contractor would provide 3 meals a day to a minimum of 150 employees,
          or a total of 450 meals each day. While the contract contained a provision for the
          contractor to provide meals to more people, at an extra cost, it did not provide for
          feeding fewer people. Had the contractor provided 3 meals each day to 150
          people, the cost per person would be less than the allowable Government per


                                           5

         diem. Our review of EPA’s meal logs from October 13, 2005, through November
         14, 2005, showed the average number of meals provided each day was 96 for
         breakfast, 43 for lunch, and 66 for dinner. Ideally, in response to future disasters,
         it would be advantageous to have a more flexible contract. With a more flexible
         contract, EPA may have been able to reduce the number of meals provided by the
         contractor and reduce costs.

         EPA’s contract to obtain 66 trailers and related services, valued at over
         $4.5 million, also needed more flexibility. While EPA had the option to terminate
         this 6-month contract for convenience, it had no flexibility to reduce the number
         of trailers should the occupancy rates warrant a reduction, or if other
         accommodations (such as hotels, motels, and apartments) became available. With
         a more flexible contract, EPA could have perhaps saved money on housing and
         related services by reducing the number of trailers or taking a less expensive
         option if it became available. In the latter part of the 6-month period, the trailers
         were not at full occupancy. During the 3-month period ended March 2006, the
         occupancy rate for the trailers averaged about 63 percent. In March 2006, EPA
         awarded a new contract for trailers that did include more flexible options.

Contract Requirements Needed More Detail
         In several cases, EPA entered into contracts that did not have adequately defined
         terms and conditions. These contracts did not adequately describe exactly what
         services would be received, at what levels (e.g., frequency or type) the services
         would be provided, or how much EPA would pay for individual services.

         For example, EPA’s aforementioned contract for trailers to house EPA personnel
         in New Orleans bundled support services. This contract required EPA to pay
         $200 per trailer for daily janitorial services, laundry services, toiletries, linens,
         towels, pillows, and trash removal. These services were not individually priced.
         Therefore, when trailers were vacant and janitorial, laundry, and linen services
         were not needed or needed to be reduced, it was difficult to determine the proper
         amount to be credited to the contract. Moreover, when services are bundled, it is
         difficult to determine whether the prices paid were reasonable, and we were not
         able to make such a determination.

         Also, EPA’s previously noted food service contract to provide meals needed more
         detail. The contract stipulated 3 meals a day to 150 employees, for a total of 450
         meals, at a total contract price of almost $750,000. However, the contract did not
         specify either the type of food to be served or a price for each meal. This proved
         problematic when EPA determined that lunch was unnecessary because many
         employees traveled to distant work sites. EPA requested that the contractor stop
         lunch. EPA’s contracting officers consequently negotiated to have the contractor
         increase the quality and quantity of breakfast and dinner rather than reduce the
         contract price.




                                           6

Contract Performance Periods Longer than Necessary
          Three procurements had performance periods that appeared unnecessarily long.
          Understandably, it is necessary to pay a premium for emergency services
          following a disaster. However, as conditions improve and the demand for
          emergency services subsides, prices should decline. Negotiating emergency
          services contracts with long periods of performance makes EPA vulnerable to
          overpaying. Further, EPA entered into many of these early contracts as sole
          source procurements, and lower rates could likely be obtained later through
          competition.

          For example, on September 10, 2005, EPA entered into a sole source contract for
          helicopter services at a rate of $750 per hour. The original order and modification
          did not specify a period of performance but a subsequent modification established
          a 12-month period of performance through September 2006. Had this contract
          remained in place, EPA could have paid the noncompetitive rate for up to 1 year.
          However, the EPA Control Board representative expressed concern regarding the
          length of this contract, and EPA ended the contract in November 2005.

Price Reasonableness Determinations Inadequate
          On September 9, 2005, EPA issued a Class Justification for Other-Than-Full-and-
          Open Competition. While this allowed EPA to more easily award contracts
          needed for Katrina, EPA at times did not meet one important requirement of this
          class justification. Contracting officers needed to determine that the anticipated
          cost to the Government would be fair and reasonable. However, in approximately
          half of the purchase orders reviewed by the OIG and EPA’s Control Board
          representative, price reasonableness determinations were either missing from the
          file, documented well after the procurement, or inadequately supported.

          We considered reasonableness determinations to be inadequately supported
          because there was little evidence that the contracting officer attempted to check
          the prices of other sources, such as the Internet, similar procurements, or General
          Services Administration price lists. Many times the purchaser said it considered
          prices reasonable based on the past experience or knowledge of the responders.

Non-Katrina Items Purchased Using Relaxed Authority
          We found a few instances where EPA used the micro-purchase authority under
          Hurricane Katrina to purchase items not related to the Katrina response. In most
          cases, these appeared to be year-end purchases. An example was the purchase of
          video conferencing equipment using EPA’s appropriated funds. EPA bought
          12 of the machines on a sole source basis on September 30, 2005, the last day of
          the fiscal year. The documentation cited the Justification for Other-Than-Full
          and-Open Competition authority for Katrina response as the justification.
          Eventually, three of these machines were in fact used in regions impacted by


                                           7

          Katrina. However, the other nine machines were not. Four of the machines were
          delivered to Research Triangle Park, North Carolina, while as of February 2006,
          the remaining five machines remained in their boxes, unopened, in the basement
          of EPA headquarters in Washington, DC.

Procurements Often Rushed and Contracting Personnel Not Available
          Many conditions understandably occurred because of the extreme rush to obtain
          equipment and services immediately after Hurricane Katrina occurred. However,
          a contributing factor was that contracting personnel were not always involved in
          the upfront negotiations. Instead, facility and response personnel sometimes
          performed preliminary negotiations. EPA’s Control Board representative also had
          this same concern, noting “Documentation suggests that the contractual
          negotiations are being performed by technical staff leaving various contracting
          officers to craft contractual language after the fact and based on ambiguous
          circumstances and agreements.” This appeared to have occurred because
          contracting officers initially sent to the affected area were overwhelmed with
          work. In some cases, this is why price reasonableness determinations and other
          documentation were completed after the procurement. Another contributing
          factor was that the rotation of contracting officers added to workload. Generally
          every 2 weeks, new contracting officers would arrive and have to review and
          analyze ongoing procurements and initiate new procurements.

EPA Initiated Corrective Actions Promptly
          Many of the contracting issues discussed in this chapter resulted from
          collaborative reviews by the OIG and EPA’s Control Board representative. These
          issues were discussed with Control Board members, who agreed that contracts
          needed more flexibility and details, and that periods of performance were at times
          too long. As a result, EPA took prompt action while the Katrina response was
          still in process. For example, EPA awarded new contracts for temporary housing
          and food that contained more flexibility and details. Moreover, EPA terminated
          several contracts with periods of performance that were considered too long.

          While opportunities for improvement still need to be considered, during EPA’s
          response to Hurricane Katrina, personnel made a commendable effort in a major
          crisis situation. EPA should consider its Katrina experiences to better prepare for
          future disaster responses. In that light, EPA should consider increasing the
          number of contracting officers in the field immediately after large disasters. It
          should also consider having contracts in place for services, such as housing and
          food service, that it will need to respond to future disasters. Region 6 personnel
          indicated that, at their request, EPA headquarters has initiated a process to
          establish these types of contracts.




                                           8

Recommendations
        Recognizing that the Assistant Administrators for OSWER and OARM have
        begun a process to improve EPA’s response efforts for future catastrophic events
        based on its Katrina experience, we recommend that the Assistant Administrators:

        2-1 	   Develop a strategy/plan to deploy a sufficient number of contracting
                officers and other support personnel to an emergency response area.

        2-2 	   Develop predetermined lists of volunteers who are willing to be deployed
                for time periods of 2 weeks or longer.

        2-3	    Continue exploring establishing advance agreements with vendors that are
                flexible and detailed for the items EPA used substantially during its
                Katrina response, such as housing, recreational vehicles, and food
                services.

Agency Response and OIG Comment

        EPA concurs with all of the recommendations in this chapter, and has initiated
        actions to address the recommendations. EPA has developed and provided initial
        training for a Response Support Corps list of EPA personnel willing and prepared
        to deploy to future incidents of national significance. This list includes
        contracting personnel. OARM is an active participant in the Government-wide
        Chief Acquisition Officer Council Contracting Contingency Work Group, which
        has a goal of creating a similar Government-wide list for use by all Federal
        agencies in the event of future incidents of national significance. OARM is also
        working with the Office of Management and Budget to develop a list of Federal
        Government-wide acquisition professionals who can be called upon to support
        emergency response efforts.

        OARM is currently in the process of awarding two national blanket purchasing
        agreements to provide emergency response technical support and logistical
        services (food, housing, facilities, etc.). The terms and conditions of these
        agreements will be as flexible as possible to address the lessons learned by EPA
        responses to incidents of national significance, including Hurricanes Katrina and
        Rita.

        OARM, however, does not agree that negotiations were often performed by
        facility or response personnel without contracting officer involvement. It stated
        that no Region 6 facility/logistics personnel participated in negotiations without a
        warranted contracting officer present.

        OARM stated that it prefers the more flexible and detailed contract terms and
        agreed these contract types would have been beneficial. However, due to the
        circumstances, it believes they made the correct decisions. The EPA contracting


                                          9

officer negotiated the absolute minimum the vendor was willing to accept to plan
and prepare meals. Likewise, they contend they negotiated a daily rate for the
trailers that was considerably less than the FEMA-allowable per diem, in spite of
the lack of opportunity to build in flexibility within the initial emergency housing
contract. Moreover, as market conditions changed and flexibility could be built
into the solicitation, the trailer contracts were re-competed.

While the OIG did not observe the negotiations, a number of EPA personnel in
the disaster area who observed and participated in negotiations told us and EPA’s
Control Board Representative that facility or response personnel performed
negotiations without contracting officer involvement. We agree that the housing
and food services contracts were negotiated and awarded under less than ideal
conditions. Our reporting that future contracts awarded under similar conditions
should be more detailed and flexible was not intended as a criticism of the
contracts awarded for the Katrina response or the price paid for each trailer. The
intent of our report is to offer suggestions for the future.

We made requested changes to the report when we deemed them appropriate.
The full text of EPA’s response is in Appendix A.




                                 10
                                Chapter 3
   EPA Can Improve Reviews of Contractor Invoices

          EPA needed to improve its review of contractor invoices to help prevent payment
          of duplicate, unallowable, and/or unreasonable costs. Our review of a limited
          number of invoices found that contractors overcharged EPA:

             •   $18,298 in duplicate payments.
             •   $54,734 by using inappropriate indirect cost and labor rates.
             •   $110,843 in boat rentals.

          We brought these matters to EPA’s attention during our review. EPA agreed with
          all those overcharges and contractors have agreed to repay the Agency. The
          overcharges often occurred because EPA did not assign an adequate number of
          experienced contracting personnel to review contractor billings. We noted that
          EPA promptly assigned more personnel to review contractor billings after we
          brought this issue to their attention, eliminating our concerns in this area and
          reducing EPA’s vulnerability to further duplicate charges and erroneous billings.

EPA Contracting Personnel Did Not Perform Sufficient Reviews
          During the initial stages of EPA’s response to Hurricane Katrina, EPA contracting
          personnel did not perform detailed reviews of amounts billed on the Region 4
          START and ERRS contracts, as well as the Region 6 ERRS contracts. In many
          cases, the contracting officers relied on reviews performed by response personnel
          in the affected area who were directing the cleanup. Conversely, the contracting
          officer and project officer for the Region 6 START contract did perform detailed
          reviews of each invoice.

          EPA policy requires contracting officers to perform one detailed review of a
          contractor’s invoices each year. Most contracting officers cited this policy as a
          reason they performed limited invoice reviews. They also said they did not have
          enough time to perform detailed reviews because the number of transactions and
          the costs billed on the START and ERRS contracts increased significantly
          because of Hurricane Katrina. However, this increased volume also escalated the
          risk of errors, overcharges, and erroneous double billings to EPA.

Duplicate Charges and Billing Errors Occurred
          Soon after EPA began its response to Hurricane Katrina, we reviewed the costs
          submitted by the six ERRS contractors on their initial billings to verify the
          accuracy of the amounts billed to EPA. Our review identified several duplicate
          charges, as noted in Table 3-1. We brought these duplicate charges to the


                                          11

         attention of EPA personnel during our review. The contractors concurred with
         our review results and have agreed to repay EPA.

           Table 3-1: Duplicate Charges
            Contractor             Duplicate Charges               Amount
                1          Labor (22 separate instances)           $14,003
                1          Per Diem                                    669
                2          Equipment (6 separate instances)          1,682
                3          Labor                                     1,696
                3          Equipment                                   248
              Total                                                $18,298
          Source: EPA OIG analysis of contractor invoices

         As part of our review, we also verified the accuracy of direct labor rates charged,
         labor categories used, and indirect rates billed. We noted various overcharges
         (see Table 3-2), which we brought to EPA’s attention during our review. The
         contractors concurred with our review results and have agreed to repay EPA.

           Table 3-2: Overcharges Related to Inappropriate Indirect Cost

           and Labor Rates 

            Contractor              Overcharges for                Amount
                1          General & Administrative Rate           $51,503
                5          Labor Rate                                2,888
                6          Labor Category                              343
              Total                                                $54,734
          Source: EPA OIG analysis of contractor invoices


EPA Overcharged for Contractor-Owned Boats
         The ERRS contracts with all six contractors assisting with the Katrina response
         specified that the maximum charge for each contractor-owned equipment item
         used on a task order should not exceed the contractor's average purchase price or
         the average value for all similar pieces of equipment in their inventory. When the
         average purchase price is reached on a particular task order, a usage rate must be
         negotiated with the contracting officer before additional amounts are billed. The
         usage rate is to reimburse the contractor for operating costs such as maintenance,
         license, and insurance.

         We noted numerous instances where the contractor or its subcontractors either
         billed, or had charges approved for invoices that would be submitted, for more
         than the average purchase price of company-owned boats. In some cases, the
         average purchase price was surpassed after just 21 days of usage. When we
         informed Region 6 personnel about this issue they determined that the clause
         limiting charges for contractor-owned equipment did not flow down to
         subcontracts. Subsequently, the contractor agreed to implement this practice with
         their subcontractors, and is currently working to reimburse EPA the amounts
         charged in excess of average purchase prices. By our calculations, EPA has been
         overcharged more than $110,000 for boat rentals, as shown in Table 3-3.


                                              12

          Table 3-3: Overcharges Related to Boat Rentals
                                          Task       Amount       Average         Amount
                    Boat Type             Order      Charged   Purchase Price   Overcharged
           Boat 14/16 ft. JEC1             56        $10,598       $6,770          $3,828
           Pontoon Boat ONYX-1             56         46,234       16,176          30,058
           Pontoon Boat ONYX-2             56         46,234       16,176          30,058
           Boat 21ft. 0555-11              56         46,234       16,176          30,058
           16ft. Monarch 0255-04           52          7,895        6,770           1,125
           20ft. Sea Ark 9855-02           52         28,070       16,176          11,894
           24ft. Boat w/cabin 0155-05      52         16,512       16,176             336
           26ft. Spill Boat 0555-07        52         17,338       16,176           1,162
           28ft. Spill Boat 0555-06        52         17,338       16,176           1,162
           G3 20ft. Boat 0555-11           52         17,338       16,176           1,162
                        Total                                                    $110,843
          Source: EPA OIG analysis of contractor invoices


EPA Needs Increased Review of Invoices during Catastrophes
          We recognize that current procedures provide for EPA personnel to review, on a
          daily basis, supporting documentation that contractors use to bill the Agency.
          However, the personnel performing these initial reviews do not have the same
          knowledge of the contract terms and requirements as the contracting personnel in
          the regional office who are normally responsible for the contract, and do not
          always review the same documentation. The initial field reviews can be rigorous,
          and are performed on a daily basis, but are only of supporting documentation.
          Contracting officer reviews normally evaluate the actual bill along with
          supporting documentation in its entirety and in greater depth on a biweekly or
          monthly basis.

          Current procedures specify that contracting officers provide a detailed review of
          one contractor invoice each year, with response personnel providing additional
          reviews. However, EPA’s response to incidents such as Hurricane Katrina
          substantially increased the volume of transactions normally experienced. The
          increased volume associated with catastrophic incidents significantly increases the
          risk of errors, fraud, waste, and abuse. Under such conditions, EPA should
          establish a plan that provides additional contracting personnel to review more
          invoices than reviewed under normal circumstances.

          During our review, we explained to EPA personnel the need for more detailed
          invoice reviews by the contracting officers in the regional offices. Region 4
          promptly provided additional contracting personnel to review invoices for
          hurricane relief. Their subsequent reviews found numerous additional errors,
          discrepancies, and overcharges. These reviews show the need for increased
          attention by contracting personnel. Region 6 officials indicated they also
          increased reviews of invoices.




                                               13

 Recommendations
          We recommend that the Assistant Administrator for OSWER, in conjunction with
          OARM:

          3-1 	   Establish a policy and procedures for reviewing contractor invoices
                  submitted during disasters that provide for additional contracting
                  personnel in the regional offices so that more billings can be reviewed
                  under each contract being used.

          3-2 	   Ensure that contract clauses to limit charges for contractor-owned
                  equipment flow down from the prime contract to the subcontracts.

          We further recommend that the Regional Administrator, Region 6:

          3-3 	   Continue efforts to recoup the amounts overcharged by contractors for
                  boat rental that exceeded the average purchase price.

Agency Response and OIG Comment

          EPA concurs with all of the recommendations in this chapter, and has initiated
          actions to address the recommendations. EPA is currently reviewing applicable
          guidance documents containing requirements and recommendations for personnel
          to perform timely reviews of invoices at the deployment site. Further, selected
          EPA contracting officers participated in an Incident Command System
          symposium in August 2006 to address key response support issues, including
          contract management and invoice approval. The Incident Command positions of
          Finance Section Chief, Procurement Unit Leader, and Cost Unit Leader are being
          further clarified to ensure roles and responsibilities are clearly established and
          communicated (including invoice approvals). Additionally, EPA states that it will
          review all affected contracts and ensure that the contract clauses limit charges for
          contractor-owned equipment, and Region 6 will continue to work with the
          contractor to ensure reimbursements or credits are received by EPA for boat
          rentals that exceeded the average purchase price.

          However, EPA believes its invoice review process was adequate, especially
          considering the extraordinary nature of the incident. The review process evolved
          and improved throughout the response. The team of field accountants that
          reviewed the 1900-55 daily reports included experienced ERRS contracting
          officers/contract specialists, and project officers from other regions. The process
          evolved from line-by-line reviews of the daily reports, including identifying and
          reporting deficiencies, to proactively reviewing invoices as they were being
          prepared onsite. This practice enabled numerous corrections to be made before
          the invoices were finalized. As the OIG review was concurrent with the EPA
          invoice review, EPA was unable to verify, with the information provided, whether



                                           14

the charges identified by the OIG were in addition to the errors found during our
review process.

OARM’s actions taken and planned meet the intent of our recommendations.
However, we do not agree with OARM’s comment that its initial invoice review
process was adequate considering the extraordinary nature of the incident.
Because of the extraordinary nature of the hurricane response, more review
capacity was needed initially for invoices. Additional capacity was added after
OIG reviews highlighted errors and overcharges by the contractors. The
overcharges for boat rentals are one such overcharge the OIG identified. The
purpose of this chapter was to highlight the need for adding review capacity to
EPA’s initial response actions when major disasters occur. Based on OARM’s
response, it appears EPA will plan for this during future disasters.

We made requested changes to the report when we deemed them appropriate.
The full text of EPA’s response is in Appendix A.




                                15

                                   Chapter 4
   Property Management during a Disaster Challenging

         EPA’s procedures for managing property appeared to be generally adequate for
         normal business situations, but EPA’s response to Hurricane Katrina was far from
         normal business. As a result, EPA property purchased for hurricane relief was not
         initially safeguarded and recorded properly. After we and EPA’s Control Board
         representative highlighted this need, EPA took action to locate and record
         equipment purchases. However, EPA’s subsequent property management efforts
         proved difficult and resource intensive. We recognize that it may not be possible
         to eliminate all the challenges associated with property management when
         responding to a disaster. Nonetheless, to better safeguard property, EPA needs to
         revise its procedures for managing property during future disaster responses.
         EPA personnel agreed, and while the Katrina response was still in process, they
         formed a workgroup to determine how to improve property management
         procedures for future disaster situations.

Katrina Caused Problems in Property Management
         EPA defines property as nonconsumable items acquired specifically for the use of
         a Government employee at the job site. They include such items as computers,
         communication devices, and test equipment. Individual items purchased by EPA
         for the Hurricane Katrina response cost as much as $82,500. EPA’s procedures
         stipulate that equipment costing $5,000 or more, as well as items on the
         “Sensitive Items” lists, must have a bar code decal affixed to them and entered
         into the Fixed Assets System (FAS) database. This system shows the location of
         the item and assigns responsibility for safeguarding it. Normally, most
         accountable property is received at a central EPA location, given a decal at the
         time of delivery, and then entered into FAS before being put into use. EPA
         guidance further provides that if equipment is delivered directly to the user, the
         user must notify the custodial officer so that the item can be recorded in FAS.

         EPA did not begin affixing decals and recording most items purchased for its
         hurricane response until approximately 4 months after Katrina occurred. By that
         time, identifying and locating the property purchased was difficult due to both the
         volume of items acquired and the various methods used to acquire them. Large
         portions of the equipment were purchased by personnel in regional offices and
         delivered to the affected areas, and by EPA personnel in the devastated areas
         usually via Government purchase cards. Equipment was delivered to various
         locations within a three-State area either without property specialists available or
         without them knowing the equipment was purchased and delivered. As a result,
         equipment valued at about $6 million was initially pressed into service without
         normal safeguards. Even several months after most items were decaled and


                                          16

recorded, we remained concerned as to whether EPA will be able to identify all
items purchased and verify whether they have been properly decaled and
safeguarded. During the Katrina response, which involved various States,
numerous locations received materials and equipment. Also, several EPA
personnel told us they believed having more property management specialists
earlier in the process may have helped. For future disasters, EPA managers
should try to determine whether they can minimize the number of locations where
materials and equipment are initially delivered, and also provide a sufficient
number of property management specialists.

There was much confusion about how equipment should be recorded in FAS.
Some responders were either not aware of EPA’s property management
requirements, or used different “homegrown” methods. For example, Region 4
did not input equipment into the FAS. Instead, it planned to rely on temporary
log/data sheets maintained in the field until the equipment was returned to EPA
offices, at which time it planned to decal and enter equipment into FAS.
Similarly, an on-scene coordinator responsible for setting up 11 satellite dishes in
all three States, costing a total of almost $250,000, did not enter the items into
FAS, and instead entered them into a spreadsheet and used a map to keep track of
where the dishes were located. Initially, both Regions 4 and 6 used informal and
incomplete accountability methods during the aftermath of Hurricane Katrina.

There was also confusion about which items should be entered into FAS.
Normally, items costing less than $5,000 are not entered into FAS unless they are
considered sensitive items that are defined as having a “high potential for theft or
to be converted to private use.” However, these rather vague terms caused
confusion among property management personnel. As a result, Region 4’s three
separate accountable areas and Region 6 did not consider many similar items as
sensitive. Most regions had their own lists of which items they considered
sensitive. In early January 2006, EPA established a national sensitive items list.
EPA needs to ensure this list is widely disseminated throughout the Agency and
updated periodically, since most regions had their own sensitive items lists.

Further complicating the process, purchases made for Katrina relief using
purchase orders and purchase cards were not segregated. Rather, they were
commingled with all other purchases for normal business. We shared the
documents related to equipment purchases that we had obtained with Region 6,
where most of the equipment purchases were made, but the process of identifying
and recording equipment still proved tedious and very time consuming. Several
months later, Region 6 had limited assurances that all equipment purchased for
Katrina had been given decals and recorded into FAS. EPA needs to devise a
process to segregate the documentation for equipment purchased for disaster relief
from routine business equipment purchases. This will facilitate the recording and
decaling of equipment rushed into service. The Agency should determine the
feasibility of providing responders with emergency purchase cards issued only for
a specific disaster, as one method to segregate purchase documentation.



                                 17

Steps Taken to Safeguard Equipment during Katrina Response
         When we brought the need to record and safeguard equipment to EPA’s attention,
         Region 4 personnel told us they planned to continue relying on the log sheets
         being maintained in the field, and affix decals and record the equipment into FAS
         after it was returned to the Region. While Region 4’s process did not follow
         EPA’s procedures, it purchased insignificant amounts of equipment in comparison
         to Region 6.

         Conversely, when we informed personnel in Region 6, where the vast majority of
         the equipment was purchased, they made an immediate and concerted effort to
         identify purchased equipment. However, because Region 6 property managers
         had not received much of the purchase order information and purchase card
         receipts, they needed to search for supporting documentation or physically locate
         items and then search for purchase records. Much of the equipment was
         purchased using the Government purchase cards of numerous volunteers from
         EPA offices across the Nation. When they returned to their regional offices, the
         purchase card receipts went with them.

         Delaying the decaling and recording of purchased property and equipment in FAS
         placed significant amounts of EPA and FEMA property at risk of being lost or
         stolen because no one was responsible for the items. Initially, differences
         between regions impacted both the type of items to be decaled and recorded, as
         well as when it would be recorded into the system. Incomplete information such
         as this could hinder EPA’s ability to obtain and use equipment needed to protect
         public health and the environment in the event of a terrorist attack or other
         nationally significant incident. Where possible, EPA should attempt to further
         adapt and refine its existing property management requirements to accommodate
         the unusual and unforeseen conditions experienced during its response to
         Hurricane Katrina.

Recommendation
         4-1 	   Recognizing that the Assistant Administrator for OSWER has begun a
                 process to improve EPA’s response efforts for future catastrophic events
                 based on its Katrina experience, and that the Assistant Administrator for
                 OARM has initiated a similar process for safeguarding equipment, we
                 recommend that the Assistant Administrators for OSWER and OARM
                 consider:

                 •	 Centralizing or reducing the number of locations for equipment
                    receipt.

                 •	 Providing a sufficient number of property specialists in the affected
                    area early during the crisis.



                                          18

               •	 Ensuring that sensitive items included in the Agency’s list are clearly
                  defined, updated periodically, and disseminated regularly.

               •	 Issuing purchase cards to responders for purchases during a specific
                  disaster.

               •	 Establishing a national custodial area in FAS for future large-scale
                  national disasters so that all equipment purchases can be recorded
                  more quickly and in a central location.

Agency Response and OIG Comment

        OARM and OSWER concurred with all of our recommendations except one, and
        provided several comments. Regarding its ability to centralize equipment receipt,
        EPA stated that depending on the specific nature and scope of the incident, EPA’s
        response process will typically include a central location for equipment delivery
        and recording/tracking. There may, however, be situations that warrant delivery
        directly to noncentralized response sites. The Logistics Chief is responsible for
        this determination, and EPA said the final version of the Incident Management
        Handbook that addresses the Logistics Chief responsibilities will be completed by
        December 31, 2006.

        EPA agreed with the need to provide a sufficient number of property specialists to
        a crisis area, and has provided initial training to Response Support Corps
        personnel, including property specialists, who are willing to deploy to future
        incidents of national significance. OSWER and OARM are developing a national
        inventory tracking system to ensure consistent and accurate equipment tracking
        and management. It is scheduled to be deployed in January 2007. OARM also
        has drafted a new policy to clarify and communicate the appropriate process and
        related requirements for property management during responses to incidents of
        national significance. EPA said this document, which will include the OIG’s
        recommendation, should be completed by December 31, 2006.

        EPA personnel did not agree to provide its emergency responders purchase cards
        for use in any response. They indicated it would be problematic to wait for a
        disaster to occur before issuing new cards to responders. They understand there is
        a need to segregate and track purchases made in response to a specific disaster
        situation. However, they believe this can be better accomplished through
        electronic logs to capture and store information on such purchases. They plan on
        developing and implementing this capability in Fiscal Year 2007.

        EPA said the OIG report implies that property accountability was neglected
        because EPA did not begin affixing decals and recording items purchased for its
        hurricane response for approximately 4 months. EPA said the report should
        reflect that 15 days after Hurricane Katrina, a task order was issued to the
        Region 6 contractors to develop a property tracking data base. This tasking


                                        19

illustrates the Agency’s recognition of the need to track property. Additionally, a
T-card system was established to track field equipment. These interim systems
initially utilized in lieu of decals did provide basic accountability for property and
equipment purchased for the immediate response.

In the early days of the response, there was understandable confusion regarding
recording accountable property information within FAS. EPA said the report
should accurately reflect that the responsibility for entering information on the 11
satellite dishes procured by EPA headquarters rested with each region’s property
officers. This equipment belonged to EPA, and was not procured with FEMA
dollars. To immediately provide communications support for the Katrina
response, the equipment was drop-shipped to the field once it was procured, in
lieu of being sent to the regional offices for FAS entries by the responsible
parties. This immediate critical support requirement clearly illustrates why
interim property procedures were put in place until such time as the appropriate
accountable property personnel became involved.

We believe EPA’s response meets the intent of all our recommendations. Its
reluctance to issue purchase cards to emergency responders is understandable.
We offered this as a recommendation, and EPA’s alternative appears worthwhile.
We agree there was understandably confusion in the aftermath of Katrina.
However, we do not agree that EPA’s interim property procedures were the
optimum method to cope with a disaster of this magnitude. The confusion
surrounding how and who should record the satellite dishes is evidence enough.
Stating that it took 4 months to begin recording purchases was not intended as a
criticism, but an indication that locating and recording equipment after the fact
with documentation scattered across a large response area should be avoided if
possible. It proved to be extremely labor-intensive for EPA personnel to record
equipment purchases after the equipment was pressed into use. EPA needs to
review what happened during Katrina with a view toward improving its responses
to future disasters.

We made requested changes to the report when we deemed them appropriate.
The full text of EPA’s response is in Appendix A.




                                  20

                              Status of Recommendations and
                                Potential Monetary Benefits
                                                                                                                              POTENTIAL MONETARY
                                                 RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                  Planned
Rec.      Page                                                                                                   Completion   Claimed    Agreed To
No.        No.                         Subject                          Status1         Action Official             Date      Amount      Amount

2-1        9     Develop a strategy/plan to deploy a sufficient           O       Assistant Administrators for    12/31/06
                 number of contracting officers and other support                    OSWER and OARM
                 personnel to an emergency response area.

2-2        9     Develop pre-determined lists of volunteers who are       C       Assistant Administrators for    04/30/06
                 willing to be deployed for time periods of 2 weeks                  OSWER and OARM
                 or longer.

2-3        9     Continue exploring establishing advance                  O       Assistant Administrators for    09/30/06
                 agreements with vendors that are flexible and                       OSWER and OARM
                 detailed for items that EPA used substantially
                 during its Katrina response, such as housing,
                 recreational vehicles, and food services.

3-1        14    Establish a policy and procedures for reviewing          O       Assistant Administrators for    12/31/06
                 contractor invoices submitted during disasters that                 OSWER and OARM
                 provide for additional contracting personnel in the
                 regional offices so that more billings can be
                 reviewed under each contract being used.

3-2        14    Ensure that contract clauses to limit charges for        O       Assistant Administrators for    12/31/06
                 contractor-owned equipment flow down from the                       OSWER and OARM
                 prime contract to the subcontracts.

3-3        14    Continue efforts to recoup the amounts                   O         Regional Administrator,       12/31/06     $110.8      $110.8
                 overcharged by contractors for boat rental that                          Region 6
                 exceeded the average purchase price.

 -               Based on our recommendations during the course                                -                               $18.3       $18.3
                 of our review, EPA recovered $18,298 from
                 contractors in duplicate charges.

 -               Based on our recommendations during the course                                -                               $54.7       $54.7
                 of our review, EPA recovered $54,734 from
                 contractors for overcharges related to indirect cost
                 and labor rates.

4-1        18    Consider centralizing or reducing the number of          O       Assistant Administrators for    12/31/06
                 locations for equipment receipt; providing a                        OSWER and OARM
                 sufficient number of property specialists in the
                 affected area early during the crisis; ensuring that
                 sensitive items included in the Agency’s list are
                 clearly defined, updated periodically, and
                 disseminated regularly; issuing purchase cards to
                 responders for purchases during a specific
                 disaster; and establishing a national custodial area
                 in FAS for future large-scale national disasters so
                 that all equipment purchases can be recorded
                 more quickly and in a central location.2

      1    O = recommendation is open with agreed-to corrective actions pending
           C = recommendation is closed with all agreed-to actions completed
           U = recommendation is undecided with resolution efforts in progress
      2    EPA agreed to take an acceptable alternative action in lieu of issuing purchase cards to responders




                                                                              21

                                                                                  Appendix A

                     Full Text of Agency Response



MEMORANDUM

SUBJECT:      Response to Draft Audit Report: Existing Contracts Enabled EPA to Quickly
              Respond to Hurricane Katrina; Future Improvement Opportunities Exist

FROM:         Luis A. Luna
              Assistant Administrator

TO:           Carl A. Jannetti
              Director, Contract Audits


       Thank you for the opportunity to submit comments on the draft report entitled, “Existing
Contracts Enabled EPA to Quickly Respond to Hurricane Katrina; Future Improvement
Opportunities Exist.” We generally agree with the draft report’s findings and recommendations,
but have attached specific and detailed comments below.

        Should you have any questions, please contact Kerrie O’Hagan, Division Director of the
Policy, Training, and Oversight Division in the Office of Acquisition Management, at (202) 564
4479.

cc: 	   Chuck Gherardini
        Kerrie O’Hagan
        Cris Thompson
        John Oliver
        John Trefry
        Johnsie Webster
        Lucy Yarbrough
        Brenda Durden




                                              22

Comments on Draft Audit Report - “Existing Contracts Enabled EPA to Quickly Respond
to Hurricane Katrina; Future Improvement Opportunities Exist”

General Comments on Report/Findings -

- Chapter 1, Page 1, Background - 3rd paragraph, 1st line - Please change “EPA” to “EPA,
Region 6,”. We had more than one Incident Command Center (ICC). The Metaire ICC was the
one established in Region 6. Another ICC was established in Region 4, first in Mobile, AL., then
moved to Biloxi, MS.

- Chapter 2, Page 5, Background, 2nd full paragraph - The draft report states “negotiations were
often performed by facility or response personnel without contracting officer involvement.” This
is not correct. Market research was performed by personnel other than procurement staff, an
acceptable contracting practice, but no Region 6 facility/logistics personnel participated in
negotiations without a warranted contracting officer present.

- Chapter 2, Page 5, Contract Agreements Need More Flexibility - We agree that more flexible
contract terms for both food service and the trailers would have been beneficial. However, due
to the circumstances (extremely limited sources who could provide these items, coupled with the
vendors’ unwillingness to accept less than a guaranteed amount/price), we believe we made the
correct decisions. The EPA contracting officer negotiated the absolute minimum the vendor was
willing to accept in order to plan meals and purchase the food required to prepare the meals.
Likewise, we negotiated a daily rate for the trailers that was considerably less than the FEMA
allowable per diem, in spite of the lack of opportunity to build in flexibility within the initial
emergency housing contract. Please note that, as market conditions changed and flexibility
could be built into the solicitation, the trailer contracts were re-competed.

- Chapter 2, Page 6, Contract Requirements Need More Detail - 2nd paragraph - Although these
services were not individually priced, the continuous occupancy of the trailers required that the
services be performed daily. While it is normally preferable to separate custodial services, due
to the lack of available sources in the weeks following the disaster and the immediate need for
acceptable housing, it was determined to be in the best interest of the Government to combine
services.

- Chapter 2, Page 8, Procurements Often Rushed and Contracting Personnel Not Available - The
draft report states “facility and response personnel sometimes performed preliminary
negotiations.” As we stated above, the facility and response personnel performed market
research, not negotiations. When the time came to negotiate scope and price, Region 6
facility/logistics personnel never participated in negotiations without a warranted contracting
officer present.

- Chapter 3, Page 12, EPA Overcharged for Contractor-Owned Boats - 1st paragraph, 2nd line -
After the sentence ending “...did not flow down to subcontracts,” we would like to add the
following sentence: “However, the contractor has agreed to implement this practice with their
subcontractors, and is currently working on a reimbursement of amounts charged in excess of
average purchase prices.”



                                                23

- Chapter 3, Page 12, EPA Needs Increased Review of Invoices During Catastrophes - 2nd
paragraph - The review process evolved and improved throughout the response. The team of
field accountants that reviewed the 1900-55 daily reports included experienced ERRS
contracting officers/contract specialists, and project officers from other Regions. The process
evolved from line by line reviews of the daily reports, including identifying and reporting
deficiencies, to proactively reviewing invoices as they were being prepared on-site. This
practice enabled numerous corrections to be made before the invoices were finalized. In
addition, the normal program review took place on the invoices, utilizing the Removal Cost
Management System (RCMS) invoicing module. All discrepancies found were addressed and
resolved by the contractors, contracting officers, and project officers. As the OIG review was
concurrent with the EPA invoice review, EPA was unable to verify, with the information
provided, whether the charges identified by the OIG were in addition to the errors found during
our review process.

 - Chapter 3, Page 12, EPA Needs Increased Review of Invoices During Catastrophes - last
paragraph, 2nd sentence - Please add Region 6 to this sentence. Both Regions provided
additional contracting personnel for the invoice reviews.

- Chapter 3, Page 13, EPA Needs Increased Review of Invoices During Catastrophes - Delete
the last sentence, starting “Region 6....” The last comment above addresses Region 6's action.

- Chapter 4, Page 14, Katrina Caused Problems in Property Management – 1st paragraph –
Please change the term “custodial officer” to “property accountable officer (PAO).”

- Chapter 4, Page 14, Katrina Caused Problems in Property Management - 2nd paragraph - The
draft report states that “EPA did not begin affixing decals and recording items purchased for its
hurricane response until approximately 4 months after Katrina occurred.” This language implies
that property accountability was neglected. The report should accurately reflect that, on
September 12, 2005, fifteen days after Hurricane Katrina, a task order was issued to the Region 6
START contractors to develop a property tracking data base. This tasking illustrates the
Agency’s recognition of the need to track property purchased in response to this disaster.
Additionally, the USCG T-card system was established to track field equipment for operational
decision-making purposes.

        Although the draft report criticizes EPA for not affixing decals to accountable property
and entering information into the Fixed Asset System (FAS) as required under EPA property
guidelines, the report should recognize that the systems initially utilized in lieu of decals did, in
fact, provide basic accountability for property and equipment purchased for the immediate
response. These interim procedures were used while EPA Logistics personnel were continuing
to provide essentially needed support for responders. Once the critical first stages of the response
were brought under control, the purchase and delivery/receiving processes were brought on line
when Region 6 Logistical personnel became engaged in the response.

- Chapter 4, Page 15, Katrina Caused Problems in Property Management – 2nd paragraph - In the
early days of the response, there was understandable confusion regarding recording accountable



                                                 24

property information within FAS. The report should accurately reflect that the responsibility for
entering information on the 11 satellite dishes procured by HQ EPA through its National
Approach to Response (NAR 4) communications equipment contract, rested with each Region’s
property accountable officers. This equipment belonged to EPA, and was not procured with
FEMA dollars. To immediately provide communications support for the Katrina response, the
equipment was drop shipped to the field once it was procured, in lieu of being sent to the
Regional Offices for FAS entries by the responsible parties. This immediate critical support
requirement clearly illustrates why interim property procedures were put in place until such time
as the appropriate accountable property personnel became involved.

- Chapter 4, Page 16, Steps Taken to Safeguard Equipment during Katrina Response – 3rd
paragraph - We recommend replacing the third sentence with the following: “Incomplete
information such as this could hinder EPA’s ability to maximize the effectiveness with which it
utilizes equipment for responding to disasters.”

Comments on Recommendations –

2-1 – Recognizing that the Assistant Administrators for OSWER and OARM have begun a
process to improve EPA’s response efforts for future catastrophic events based on its
Katrina experience, we recommend that the Assistant Administrators develop a
strategy/plan to deploy a sufficient number of contracting officers and other support
personnel to the emergency response area.

Response – We concur with this recommendation. We also suggest adding the words “or make
available” after “deploy, ” as well as a new sentence to the Recommendation that reads: “This
should be a flexible strategy where the Region(s) can determine the deployment strategy based
on the individual requirements of the emergency.”

OSWER and OARM have initiated the following to address this Recommendation:

- EPA has developed and provided initial training for a Response Support Corps (RSC) list of
EPA Headquarters and Regional personnel willing and prepared to deploy to future incidents of
national significance (INS). This list includes contracting personnel. OSWER is working with
EPA’s National Incident Coordination Team (NICT) and the Regional RSC coordinators to
develop national guidance that will identify and refine the training and exercise requirements for
the RSC. OARM/OAM is participating on the further development of this list, including
contracting officers. A National RSC Guidance document is expected to be available by
December 2006. Part of this guidance will include the requirement that personnel deploy for two
weeks or longer.

- OARM/OAM has already prepared a Headquarters/Regional List of Contracting Officers
available to be deployed to support EPA response activities, as part of a Federal Government-
wide effort. This list was prepared in April 2006. OARM/OAM is an active participant in the
Government-wide Chief Acquisition Officer Council (CAOC) Contracting Contingency Work
Group, which has a goal of creating a similar Government-wide list for use by any and all
Federal agencies in the event of future incidents of national significance.



                                               25

- OARM/OAM is working with OMB to develop a list of Federal Government-wide acquisition
professionals that can be called upon by Federal agencies to support emergency response efforts.
This program includes providing emergency response training tailored to the contracting
functions that may be needed for responding to incidents of national significance.

2-2 – Recognizing that the Assistant Administrators for OSWER and OARM have begun a
process to improve EPA’s response efforts for future catastrophic events based on its
Katrina experience, we recommend that the Assistant Administrators develop pre
determined lists of volunteers who are willing to be deployed for periods of 2 weeks or
longer.

Response – We concur. Please see our comments above for Recommendation 2-1.

2-3 – Recognizing that the Assistant Administrators for OSWER and OARM have begun a
process to improve EPA’s response efforts for future catastrophic events based on its
Katrina experience, we recommend that the Assistant Administrators continue exploring
establishing advance agreements with vendors that are flexible and detailed for the items
EPA used substantially during its Katrina response, such as housing, recreational vehicles,
and food services.

Response – We concur. OARM/OAM is leading the effort to address this issue, and is currently
in the process of awarding two national blanket purchasing agreements (BPAs) to provide
emergency response technical support and logistical services (food, housing, facilities etc.)
OARM/OAM estimates that the BPAs will be in place by 9/30/06. The terms and conditions
will be as flexible as possible to address the lessons learned by EPA responses to incidents of
national significance, including Hurricanes Katrina and Rita.

3-1 – We recommend that the Assistant Administrator for OSWER, in conjunction with
OARM, establish a policy and procedures for reviewing contractor invoices submitted
during disasters that provide for additional contracting personnel in the regional offices so
that more billings can be reviewed under each contract being used.

Response – In general, we concur. We believe the invoice review and approval process during
the hurricane response was adequate (see comments above under General Comments on
Report/Findings), especially considering the extraordinary nature of the incident, and especially
with the major support contracts (ERRS and START). However, OARM and OSWER are
currently reviewing applicable guidance documents containing requirements and
recommendations for appropriate personnel to perform timely reviews of invoices at the
deployment site. Furthermore, OSWER, OARM/OAM, and Regional Contracting Officers
participated in an Incident Command System (ICS) symposium in August 2006 with a primary
goal of addressing key response support issues including contract management, invoice approval,
etc.

      The ICS-established positions of Finance Section Chief, Procurement Unit Leader, and
Cost Unit Leader functions (including invoice approvals) are being further developed and



                                               26

clarified to ensure proper roles and responsibilities are clearly established and communicated.
The roles and responsibilities of these (and the other ICS) positions, which will report to and
work for OSWER, will be presented in the form of an Incident Management Handbook. A draft
document will be available October 1, 2006. The final version will be completed December 31,
2006.

3-2 – We recommend that the Assistant Administrator for OSWER, in conjunction with
OARM, ensure that contract clauses to limit charges for contractor-owned equipment flow
down from the prime contract to the subcontracts.

Response – We concur. OARM/OAM will review all affected contracts by the end if CY 2006,
in addition to future requirements, to ensure that such clauses are included.

3-3 – We further recommend that the Regional Administrator, Region 6, continue efforts to
recoup the amounts overcharged by contractors for boat rental that exceeded the average
purchase price.

Response – We concur. Region 6’s contracting staff will continue to work with the contractor to
ensure that reimbursements or credits are received by EPA for boat rental that exceeded the
average purchase price. We will attempt to ensure that all related reimbursements or credits are
received by the end of CY 2006.

4-1 (Bullet 1) – Recognizing that the Assistant Administrator for OSWER has begun a
process to improve EPA’s response efforts for future catastrophic events based on its
Katrina experience, and that the Assistant Administrator for OARM has initiated a similar
process for safeguarding equipment, we recommend that the Assistant Administrators for
OSWER and OARM consider centralizing or reducing the number of locations for
equipment receipt.

Response – We generally concur, but please see our notes below. EPA implements an incident
command system (ICS) when conducting responses to incidents of national significance. ICS
established clear roles and responsibilities for various response personnel/positions. The
Logistics Section Chief is responsible for the overall coordination and processing of equipment
needs, including working with the Procurement Unit Leader on procurement and with other
groups including the Operations Section on equipment needs. Based on the timing and location
of these identified needs, the Logistics Section Chief will help coordinate the scheduled delivery
of equipment. Depending on the specific nature and scope of the incident, the process will
typically include a central location for equipment delivery and recording/tracking.

There may, however, be situations that warrant delivery of equipment directly to non-centralized
response sites. This will be up to the Logistics Section Chief. The roles and responsibilities of
this and other ICS-established positions are in the process of being defined and clarified. The
final version of the Incident Management Handbook that will address the roles and
responsibilities will be completed by December 31, 2006.




                                                27

4-1 (Bullet 2) – Recognizing that the Assistant Administrator for OSWER has begun a
process to improve EPA’s response efforts for future catastrophic events based on its
Katrina experience, and that the Assistant Administrator for OARM has initiated a similar
process for safeguarding equipment, we recommend that the Assistant Administrators for
OSWER and OARM consider providing a sufficient number of property specialists in the
affected area early during the crisis.

Response – We concur. EPA has developed and provided initial training to Response Support
Corps personnel, including property secialists, in Headquarters and the Regional offices. These
are personnel willing and prepared to deploy to future incidents of national significance (INS).
OSWER is working with EPA’s NICT and the Regional Response Support Corps coordinators to
develop national guidance which will identify and refine the training and exercise requirements
for the RSC, including all necessary specialist requirements. A National RSC Guidance
document is anticipated by December 31, 2006.

4-1 (Bullet 3) – Recognizing that the Assistant Administrator for OSWER has begun a
process to improve EPA’s response efforts for future catastrophic events based on its
Katrina experience, and that the Assistant Administrator for OARM has initiated a similar
process for safeguarding equipment, we recommend that the Assistant Administrators for
OSWER and OARM consider ensuring that sensitive items included in the Agency’s list
are clearly defined, updated periodically, and disseminated regularly.

Response – We concur. OARM has drafted and is currently revising a new policy document to
clarify and communicate the appropriate process and related requirements for property
management during responses to incidents of national significance. This document, which will
include your recommendation, should be completed by December 31, 2006.

In addition to standard policy publication and dissemination processes, this effort will also be
coordinated and communicated via the National Approach to Response (NAR) Administration
and Finance Support Workgroup. Also, the property management process was one key item of
discussion at the Incident Command System (ICS) symposium in August 2006. The position of
Logistics Section Chief and related subordinate unit leaders are being further developed and
clarified to ensure proper roles and responsibilities during responses to incidents of national
significance, including clear guidelines for property management. The roles and responsibilities
of these (and the other ICS) positions will be presented in the form of an Incident Management
Handbook. A draft document will be available October 1, 2006. The final version will be
completed December 31, 2006.

4-1 (Bullet 4) – Recognizing that the Assistant Administrator for OSWER has begun a
process to improve EPA’s response efforts for future catastrophic events based on its
Katrina experience, and that the Assistant Administrator for OARM has initiated a similar
process for safeguarding equipment, we recommend that the Assistant Administrators for
OSWER and OARM consider issuing purchase cards to responders for purchases during a
specific disaster.




                                               28

Response – We do not agree with this recommendation. EPA’s emergency responders already
have purchase cards issued to them for use in any response. It would not only be unnecessary,
but problematic, to wait for a disaster to occur before issuing new cards to responders. We
understand that there is a need to segregate and track purchases made in response to a specific
disaster situation. We believe this can be better accomplished through obtaining electronic log
capability that could be used within the Incident Command Structure to capture and store
information on such purchases. We plan on developing and implementing this capability in FY
2007.

4-1 (Bullet 5) – Recognizing that the Assistant Administrator for OSWER has begun a
process to improve EPA’s response efforts for future catastrophic events based on its
Katrina experience, and that the Assistant Administrator for OARM has initiated a similar
process for safeguarding equipment, we recommend that the Assistant Administrators for
OSWER and OARM consider establishing a national custodial area in FAS for future
large-scale national disasters so all equipment purchases can be recorded more quickly and
in a central location.

 Response - We concur. OSWER and OARM property personnel are developing a national
inventory tracking system to ensure consistent and accurate equipment tracking and management
in future responses to incidents of national significance. This tracking system is scheduled to be
deployed in January 2007. OARM has drafted, and is currently revising, a new policy document
to clarify and communicate the appropriate process and related requirements for property
management during responses to incidents of national significance, including the use of this
tracking system.

In addition to standard policy publication and dissemination processes, this effort will also be
coordinated and communicated via the National Approach to Response (NAR) Administration
and Finance Support Workgroup. Also, the property management process was one key item of
discussion at the Incident Command System (ICS) symposium in August 2006. The position of
Logistics Section Chief and related subordinate unit leaders are being further developed and
clarified to ensure proper roles and responsibilities during responses to incidents of national
significance, including clear guidelines for property management. The roles and responsibilities
of these (and the other ICS) positions will be presented in the form of an Incident Management
Handbook. A draft document will be available October 1, 2006. The final version will be
completed December 31, 2006




                                                29

                                                                           Appendix B

                                 Distribution

EPA Headquarters

     Office of the Administrator
     Assistant Administrator for Solid Waste and Emergency Response
     Assistant Administrator for Administration and Resources Management
     Agency Followup Official
     Agency Followup Coordinator
     General Counsel
     Associate Administrator for Congressional and Intergovernmental Relations
     Associate Administrator for Public Affairs
     Audit Followup Coordinator, Office of Solid Waste and Emergency Response
     Audit Followup Coordinator, Office of Administration and Resources Management
     Acting Inspector General


EPA Region 4

     Regional Administrator 

     Regional Audit Followup Coordinator 



EPA Region 6

     Regional Administrator 

     Regional Audit Followup Coordinator 





                                             30

